Washington, D.C. 20530

September 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: John G. Tomes v. United States of America,
S.Ct. No. 20-5104
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 7, 2021, 2021.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on September 27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5104
TOMES, JOHN G.
USA

MATTHEW MCGAVOCK ROBINSON
ROBINSON & BRANDT, PSC
629 MAIN STREET
SUITE B
COVINGTON, KY 41011
859-581-7777
ASSISTANT@ROBINSONBRANDT.COM

